—
I

@OCKLE

Legal Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No.
MARY LOUISE SERAFINE,
Petitioner,

V.

KARIN CRUMP, In her Individual and Official Capacities
as Presiding Judge of the 250th/200th Civil District Court
of Travis County, Texas; LORA J. LIVINGSTON,

In her Official Capacity as Presiding Judge of the
261st/200th Civil District Court of Travis County, Texas;
DAVID PURYEAR, In his Individual and Official
Capacities as Justice of the Third Court of Appeals at

Austin, Texas; MELISSA GOODWIN, In her Individual
and Official Capacities as Justice of the Third Court
of Appeals at Austin, Texas, BOB PEMBERTON,

In his Individual and Official Capacities as Justice of
the Third Court of Appeals at Austin, Texas,

Respondents.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court

Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 4671 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 14th day of August, 2020.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

ere] Kone 9. Bao? Ondiae he bbl

Notary Public

Affiant

40033
